                 U.S. CONSUMER PRODUCT SAFETY COMMISSION
                            BETHESDA, MD 20814

Christopher W. Dente!                                                                              Tel: 301 504-7644
Inspector General                                                                                  Fax: 301 504-7004
                                                                                                   Email: cdentel@cpsc.gov

                                                                                    Date: March 6, 2012
Via Electronic Transmission

TO             The Honorable Daniel I. Werfel
               Controller, Office of Federal Financial Management
               Office of Management and Budget
               725 17th Street, NW
               Washington, DC 20503

FROM           Christopher W. Dente!
               Inspector General

SUBJECT: Improper Payments Elimination and Recovery Act (IPERA) Review

1. IPERA (Public Law 111-204) was enacted on July 22, 2010, and the Office of Management
and Budget (OMB) issued implementing guidance on April 14, 2011-0MB Memorandum
M-11-16. M-11-16 requires that Inspectors General review annually their agency's improper
payment reporting in their agency's Performance and Accountability Report (PAR).

2. M-11-16 specifies that Inspectors General should review their agency's PAR for the most
recent fiscal year and determine if the agency:
    • published a PAR for the most recent fiscal year and posted that report and any
        accompanying materials required by OMB on the agency website;
    • reported the agency's estimated improper payments
    • conducted a risk assessment to identify programs/activities that may be susceptible to
        improper payments
    • conducted a program-specific risk assessment for each program or activity that conforms
        with Section 3321 ofTitle 31 U.S.C. (ifrequired);
    • published improper payment estimates for all programs and activities identified as
        susceptible to significant improper payments under its risk assessment (if required);
    • published programmatic corrective action plans in the PAR or AFR (if required);
    • published, and has met, annual reduction targets for each program assessed to be at risk
        and measured for improper payments;

                        CPSC Hotline: 1-800-638-CPSC(2772) H CPSC's Web Site: http//www.cpsc.gov
Page 2
   • reported a gross improper payment rate of less than 10 percent for each program and
       activity for which an improper payment estimate was obtained and published in the PAR
       or AFR; and
   • reported information on its efforts to recapture improper payments.


3. Although the CPSC did publish and post on its agency website a PAR, and that PAR did
include some information regarding its efforts to comply with IPERA, the agency acknowledges
not being in compliance with IPERA. The agency did not conduct an initial estimate of
improper payments or a formal program risk assessment. The PAR did not include any
information regarding the agency's efforts to recapture improper payments. It is not possible for
this office to formally evaluate the accuracy and completeness of agency reporting; or to evaluate
agency performance in reducing and recapturing improper payments because these, and other
program elements, have either not been developed or not been implemented.

4. The CPSC indicated in their 2011 PAR that in 2012 they plan to refine the risk assessment
criteria such that a," ... gross estimate is included and to be more substantially compliant with
OMB's guidance and IPERA." If this in fact takes place, it will be possible for our office to
perform a more formal, and substantive, review of agency efforts in this area.

5. If you have any questions please feel free to contact me directly.


                                                   ~ .\J \.)~
                                                 (\(\ .
                                                 ~.DENTEL
                                                 Inspector General
